                                                   IG-00-028




AUDIT
                              SAFETY CONCERNS WITH
REPORT                       KENNEDY SPACE CENTER’S
                           PAYLOAD GROUND OPERATIONS

                                  March 30, 2000




                       OFFICE OF INSPECTOR GENERAL
National Aeronautics
and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

      Assistant Inspector General for Auditing
      Code W
      NASA Headquarters
      Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the NASA
Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html




Acronyms

CMR             Center Materials Representative
ESD             Electrostatic discharge
ISS             International Space Station
MUA             Material Usage Agreement
O&C             Operations and Checkout
OIG             Office of Inspector General
PFA             Plastic film, Foams, and Adhesive tapes
PGOC            Payload Ground Operations Contract
SSPF            Space Station Processing Facility
W                                                                                          March 30, 2000




TO:           A/Administrator

FROM:         W/Inspector General

SUBJECT: INFORMATION: Safety Concerns with Kennedy Space Center’s
         Payload Ground Operations Redacted Report∗
         Report Number IG-00-028


The NASA Office of Inspector General has completed an audit of Safety Concerns with Kennedy
Space Center’s Payload Ground Operations. During the audit, we found materials that consistently
failed required tests for flammability resistance and electrostatic discharge1 in use in two processing
facilities at the Kennedy Space Center. Such potentially hazardous materials include plastic films,
foams, and adhesive tapes used by payload processing personnel under Boeing’s Payload Ground
Operations Contract. These materials have been used without approval of the Kennedy Safety Office
since 1992. NASA authorized variances,2 in the form of Materials Usage Agreements,3 for the use of
some of the materials but not until 1999. However, the contractor continued unapproved uses of the
materials even under the terms of the Materials Usage Agreements. Moreover the variances were
ineffective because neither the NASA nor Boeing safety offices reviewed the variances and Boeing had
not performed required risk analyses to support the variances. As a result, NASA has not identified,


*
  We have redacted portions of this report due to deliberative process information. The redacted passages do not
affect the validity of this report or management's response.
1
  Kennedy Handbook 1710.2, “Kennedy Space Center Safety Practices Handbook,” requires that plastic films and
adhesive tapes pass acceptance criteria for flammability and ESD. The handbook makes reference to the Kennedy
Materials Sciences division intranet, which also includes foams as materials that need to pass the acceptance criteria.
The basic requirements are:
     Flammability Resistance – the material should be self-extinguishing before 6 inches of the test sample is
consumed, should not drip flaming particles, and should not permit fire to propagate to another object; and
     Electrostatic Discharge – the material can hold a charge of only 350 volts for less than 5 seconds after
     termination of the initial charge.
2
  NASA Handbook 1700.1, “NASA Safety Policy and Requirements Document,” defines a variance as documented
and approved permission to perform some act contrary to established requirements.
3
  Material Usage Agreements are Kennedy’s variance mechanisms for allowing the use of materials that fail required
tests for flammability and electrostatic discharge. Scant criteria exist that address the use of Material Usage
Agreements.
documented, and appropriately mitigated the risks of using the potentially hazardous materials, exposing
personnel and flight hardware to increased risks.
                                                                                                                        2

Background

As Kennedy's Payload Ground Operations contractor, Boeing performs payload-processing activities
for Space Shuttle and expendable launch vehicle payloads, including flight elements of the International
Space Station. Boeing performs such work primarily at two Kennedy Space Center processing
facilities: the Space Station Processing Facility and the Operations and Checkout building.4 Safety is a
critical element of contractor performance. A single mishap could adversely affect flight or key
processing milestones or result in risks to NASA equipment, flight hardware, and personnel. The
Payload Ground Operations Contract requires that all plastic films, foams, and adhesive tapes meet
basic standards for flammability resistance and electrostatic discharge. Processing personnel can use
materials that do not pass required tests; however, NASA and Boeing should prepare a variance for the
use of such materials. To ensure that the associated risks are properly managed, variances should
include appropriate risk mitigation plans. NASA and Boeing safety officials should also review the
variances.

Recommendations, Management's Response, and Evaluation of Response

We recommended that the Director, John F. Kennedy Space Center (1) implement procedures to
ensure the safe use of all materials that do not meet standards, (2) clarify instructions for preparing
Material Usage Agreements,and (3) increase surveillance of Boeing’s inspection procedures. We also
recommended that the Payload Ground Operations Contract Contracting Officer (1) determine whether
there is a basis to withhold contract costs related to noncompliant plastics, foams, and adhesives, and
(2) ensure that proper contract award fee action is taken based on Kennedy’s increased surveillance of
the Payload Ground Operations contractor.

Management concurred with the recommendations. Kennedy has planned or implemented additional
procedures to ensure the safe use of materials that do not meet standards for flammability and
electrostatic discharge. The Center has also agreed to clarify the procedures for preparing Material
Usage Agreements and to increase surveillance of the Payload Ground Operations contractor. Details
on the status of the recommendations are in the recommendations section of the report (pages 9-10).

Kennedy management provided extensive comments on our findings (see Appendix E).




4
  The Space Station Processing Facility was built for processing International Space Station flight hardware. It is a
three-story, 457,000 square foot building that includes two processing bays, an airlock, operational control rooms,
laboratories, office space, and a cafeteria. The Operations and Checkout building is used for receiving, assembling,
and integrating Shuttle payloads. It is a five-story building containing 600,00 square feet of offices, laboratories,
astronaut crew quarters, and spacecraft assembly areas.
                                                                                                       3

Management contends that plastics, foams, and adhesives are not inherently hazardous materials but can
create potentially hazardous conditions if not properly handled. Our concerns address the weakness in
Kennedy's process for verifying the acceptablility of materials that failed required tests. We respond to
management's comments in Appendix F of the report.


[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of Safety Concerns with Kennedy Space Center’s
 Payload Ground Operations
      FINAL REPORT
AUDIT OF SAFETY CONCERNS WITH
   KENNEDY SPACE CENTER’S
 PAYLOAD GROUND OPERATIONS
W                                                                         March 30, 2000


TO:              Q/Associate Administrator for Safety and Mission Assurance
                 AA/Director, John F. Kennedy Space Center

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on Audit of Safety Concerns with Kennedy Space Center’s
                 Payload Ground Operations
                 Assignment Number A9900301
                 Report Number IG-00-028


The subject final report is provided for your information and use. Our evaluation of your
response is incorporated into the body of the report. The corrective actions planned for the
recommendations are responsive. Recommendation 4 is considered closed for reporting
purposes. Recommendations 1, 2, 3, and 5 will remain open for reporting purposes until
corrective actions are completed. Please notify us when action has been completed on the
recommendations, including the extent of testing performed to ensure corrective actions are
effective.

If you have questions concerning the report, please contact Mr. Kevin J. Carson, Program
Director, Safety and Technology Audits, at (301) 286-0498, or Mr. Karl M. Allen, Auditor-in-
Charge, at (202) 358-2595. We appreciate the courtesies extended to the audit staff. The final
report distribution is in Appendix G.

[Original signed by]


Russell A. Rau

Enclosure
                                                    2
cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
M/Associate Administrator, Office of Space Flight
QS/Director, Safety and Risk Management Division
                                                                     3
bcc:
AIGA, IG Chrons
KSC/201/Audit Liaison Officer
KSC/300/Director, Office of Safety and Mission Assurance
KSC/OP-OSO/Contracting Officer, Payload Ground Operations Contract
W/K. Carson
   K. Allen
   R. Andrade
                             NASA Office of Inspector General

IG-00-028                                                                                March 30, 2000
 A9900301

                          Safety Concerns with Kennedy Space Center’s
                                   Payload Ground Operations

Introduction

The Office of Inspector General (OIG) is performing an audit of NASA contractor safety
programs. The overall objective is to evaluate the safety procedures of Agency contractors. As
part of this assignment, we also addressed concerns the House of Representatives Committee on
Science provided to the OIG. The Committee’s concerns focused on the safety functions of the
John F. Kennedy Space Center’s (Kennedy) Payload Ground Operations Contract (PGOC)
performed by McDonnell Douglas Aerospace, Space and Defense Systems; a subsidiary of The
Boeing Company (Boeing). We reviewed the PGOC contractor’s operations to determine
whether:

    •    safety responsibilities between Boeing and NASA had been clearly defined,

    •    hazardous materials were being used in Kennedy’s processing facilities, and

    •    hazardous materials, if used, were properly controlled.

A January 1997 modification to the PGOC (number NAS10-11400) defines Boeing’s safety
responsibilities relating to the PGOC. With this modification, NASA converted the contract to a
performance-based contract and revised the statement of work to more clearly establish safety
responsibilities for Boeing, NASA, and other contractors at various Kennedy processing facilities,
including the Space Station Processing Facility (SSPF) and the Operations and Checkout (O&C)
building.5

Appendix A contains further details on the audit objectives, scope, and methodology.




5
 The SSPF was built for processing International Space Station flight hardware. It is a three-story, 457,000
square foot building that includes two processing bays, an airlock, operational control rooms, laboratories,
office space, and a cafeteria. The O&C building is used for receiving, assembling and integrating Shuttle
payloads. It is a five-story building containing 600,00 square feet of offices, laboratories, astronaut crew
quarters, and spacecraft assembly areas.
Results in Brief

Ground workers6 at Kennedy were using potentially hazardous materials in both the SSPF and
O&C building that consistently failed required tests for flammability resistance and electrostatic
discharge (ESD). This occurred because Boeing’s safety office did not perform adequate,
contract-required inspections of the facilities to ensure that NASA had approved all plastic films,
foams, and adhesive tapes (PFA’s) being used or that ground workers removed unapproved
materials from the premises. NASA records show that the materials failed required tests as far
back as July 1992. Beginning in September 1999, NASA authorized variances7 for the use of
some of the materials. However, these variances were ineffective because neither the Kennedy
nor Boeing safety offices reviewed the variances, and Boeing did not perform any risk analyses to
support the variances, as required by the PGOC. As a result, NASA has not identified,
documented, and appropriately mitigated the risks of using the potentially hazardous materials,
exposing ground workers and flight hardware to increased risks. NASA and Boeing Safety and
Materials personnel met in December 1999 and acknowledged that problems exist regarding the
use of potentially hazardous materials in both the SSPF and O&C building.

Background

NASA awarded the PGOC to McDonnell Douglas Astronautics Company on
January 1, 1987. The cost-plus-award-fee contract was valued at $1.9 billion and had a period
of performance extending through December 2001. Through a subsequent merger with The
Boeing Company, the contractor became McDonnell Douglas Aerospace, Space and Defense
Systems; a subsidiary of Boeing. As the PGOC contractor, Boeing performs payload-processing
activities for Space Shuttle and expendable launch vehicle payloads, including flight elements of
the International Space Station (ISS). Boeing performs such work primarily at Kennedy in the
SSPF and O&C building. Safety is a critical element of contractor performance. A single mishap
could adversely affect flight or key processing milestones or result in risks to NASA equipment,
flight hardware, and ground workers. According to the PGOC, Boeing is responsible for
ensuring industrial and operational safety8 in most areas of the SSPF and the O&C building. This
includes inspections of all work areas to detect, eliminate, and control hazards. Also, the
Kennedy safety office provides insight into Boeing’s operations.



6
  Ground workers include personnel from NASA-Kennedy, Boeing PGOC, Boeing Space Station Contract, and
other contractor personnel authorized to work on payloads in the SSPF and O&C building.
7
  NASA Handbook 1700.1, “NASA Safety Policy and Requirements Document,” defines a variance as
documented and approved permission to perform some act contrary to established requirements.
8
  According to the Boeing PGOC Safety and Health Plan, industrial safety includes safety procedures such as
mishap reporting, facilities design, fire prevention, handling of hazardous materials, and personal protective
equipment. The plan defines operational safety as the development of safety support into payload handling,
testing, and checkout operations processes.



                                                    2
The PGOC, by reference to several sources, requires that all PFA’s used in Kennedy processing
facilities meet standards for flammability resistance and ESD.9 At Kennedy, the NASA Materials
Sciences Lab is responsible for testing all materials against flammability and ESD requirements.
NASA and Boeing personnel can use materials that do not pass required tests; however, NASA
and Boeing should prepare a variance for the use of such materials and ensure that the associated
risks are properly managed.

Use of Potentially Hazardous Materials in Kennedy Processing
Facilities

Finding. Ground workers were using potentially hazardous materials in Kennedy processing
facilities without exercising proper control and safety precautions. This condition exists because
(1) Boeing safety personnel have not performed adequate, contract-required inspections of the
facilities and (2) Kennedy or Boeing safety personnel had not reviewed the Materials Usage
Agreements (MUA’s) authorizing use of the potentially hazardous materials, which were not
supported by risk analyses. As a result, NASA lacks assurance that associated risks are
adequately identified, documented, reviewed, and mitigated. Improper use of these materials is
potentially hazardous to ground workers and increases the risk of damage to Space Shuttle
payloads, including ISS hardware and equipment.

Materials Usage Requirements

There are numerous NASA-wide and Kennedy-specific requirements that address the testing and
control of potentially hazardous materials. Appendix B lists the sources of such requirements.
Kennedy Handbook 1710.2, “Kennedy Space Center Safety Practices Handbook,” which is
incorporated into the PGOC by reference and which refers to the Kennedy Materials Sciences
Division intranet, requires that PFA’s pass acceptance criteria for flammability and ESD. The
Kennedy Materials Application Advisory Board maintains a list of the materials that have passed
the required tests and are approved for use in Kennedy facilities. The PGOC Safety and Health
Plan, which is also part of the contract, addresses the procedures for authorizing the use of
materials that do not pass such criteria. Section 3.13 of the PGOC Safety and Health Plan states:

                 The need for a variance to a safety requirement normally results from a
                 situation where standard safety precautions and regulations do not permit
                 accomplishment of, or unacceptably delay, a particular mission or

9
 Kennedy Handbook 1710.2, “Kennedy Space Center Safety Practices Handbook,” requires that plastic films,
and adhesive tapes pass acceptance criteria for flammability and ESD. The handbook makes reference to the
Kennedy Materials Sciences division intranet, which also includes foams as materials that need to pass the
acceptance criteria. The basic requirements are:
    Flammability Resistance – the material should be self-extinguishing before 6 inches of the test sample is
consumed, should not drip flaming particles, and should not permit fire to propagate to another      object;
and
    ESD – the material can hold a charge of only 350 volts for less than 5 seconds after termination of the
    initial charge.



                                                    3
                    operation. . . . All out-of-family safety variances will be forwarded to
                    NASA-KSC [Kennedy] Safety for approval. . . . For safety variances
                    forwarded to NASA Safety for approval, [Boeing] Safety will prepare a risk
                    assessment of the safety impact of the variance and forward with the
                    request to NASA-KSC [Kennedy] Safety. . . .


Kennedy uses MUA’s as the variance mechanism for potentially hazardous materials. Scant
criteria exist that address the use of MUA’s other than KSC (Kennedy Space Center)-LO-
8060.1, “KSC [Kennedy Space Center] Materials and Processes Control Program,” July 15,
1997, which states:

                    The Directors of Engineering Development; Shuttle Management and
                    Operations; Payload Management and Operations; Installation
                    Management and Operations; Safety and Mission Assurance; and the
                    cognizant program/project manager are responsible for: . . . Ensuring that
                    only approved M&P [materials and processes] are used (including
                    contractor usage) and that MUA’s are provided to the CMR [Center
                    Materials Representative] in a timely manner for evaluation prior to
                    operations use.


Potentially Hazardous Materials Used

In the SSPF and O&C building, Kennedy ground workers are using the following materials that
have failed the required tests:

•      Polyethylene foams are used to pad pieces of flight hardware and test stands and to protect
       pallets and flooring surfaces.

•      Plastic bubble wrap that often comes into the facilities as packing materials is used.
       Photographs from the Kennedy archives of the SSPF high bay showed bubble wrap used for
       other than packing material (Appendix D, Figure 3).

•      Flash breaker tape is on ISS lab flight hardware surfaces in the SSPF.

We obtained NASA test records, dating from 1992 through September 1999, that show these
materials have failed required flammability and ESD tests, making them noncompliant with the
Space Shuttle Payload Ground Safety Handbook and other Kennedy safety requirements. In
September 1999, the Kennedy Center Materials Representative (CMR)10 approved the use of
some of the materials by signing MUA’s. A full description of the materials, test results, and
MUA data is provided in Appendix C.

We also obtained a list of 73 other PFA’s from the Kennedy Materials Sciences Lab that were
not on the Kennedy-approved material listing and that Boeing may have been using under the
PGOC in the SSPF. These materials were various types of plastic tape, electrical tape, and
10
     The CMR is responsible for administering Kennedy’s materials and processes control program.



                                                      4
plastic bags that may have been used throughout the SSPF. An employee of the Materials
Sciences Lab told us that he instructed the Boeing safety office to have all the materials tested;
however, Boeing never complied with the request. There were no MUA’s for any of these
materials. We could not identify the extent of use of the materials through either our visual
inspections of the SSPF and O&C building, or through pictures from those facilities.

Boeing Safety Inspections

The Boeing safety office has not performed adequate, contract-required inspections of the SSPF
and O&C building. The PGOC Safety and Health Plan, which is incorporated as part of the
contract, states:

                Safety inspections of all work areas (payload processing and
                administrative) under the jurisdiction of the PGOC will be performed on a
                regular basis . . . . The primary reasons for performing safety inspections
                are detection, elimination or control of hazards in the workplace, and the
                assurance that compliance requirements are being met.


Boeing safety personnel told us they performed regular inspections of both the SSPF and O&C
building high bay areas. However, the effectiveness of those inspections is questionable. For
example, records show that as of September 1997, the Boeing safety office was aware that
polyethylene foams and plastic bubble wraps had failed required flammability and ESD tests.
Despite those results, Boeing continued to use the materials. Photographs in Figure 1 and
Appendix D show their use in both facilities as of March 1998 and as recently as November
1999.

On November 3, 1999, Boeing safety officials, including the Senior Managers for Safety, and
Quality Assurance, stated that they were not aware of any (1) PFA's in either the SSPF or O&C
building or (2) variances allowing ground workers to use such materials. When we toured the
SSPF high bay a week later on November 10, 1999, we observed that all the various
polyethylene foams were in abundant use throughout the facility. The Kennedy Chief Safety
Officer stated that noncompliant PFA’s were used only as packaging material and did not pose a
hazard.

MUA’s Obtained for Some Materials

Although MUA’s were authorized for Boeing’s use of some of the materials, the MUA approval
process was not effective. On five occasions beginning on September 21, 1999, or after the start
of our audit, NASA used MUA’s to approve the use of some of the materials that failed required
tests. Four of the materials were polyethylene foam, and one was flash breaker tape used on ISS
hardware. The Kennedy CMR approved the MUA’s for the five materials based only on oral
assurance by Boeing materials and processes personnel that Boeing would use the materials
safely. The MUA approval process was not effective because (1) the CMR did not approve the
MUA’s in a timely manner, (2) Boeing did not support the MUA’s with documented risk



                                                  5
analyses, and (3) neither the Kennedy nor Boeing safety offices reviewed and approved the
MUA’s.

•    Timely Completion. The Kennedy CMR approved the MUA’s 7 years after the materials
     first failed required testing. Although test records show that some of the materials failed
     required tests as early as July 1992, the Kennedy CMR and the Boeing materials and
     processes representative did not sign the MUA’s until September and October 1999. KSC-
     LO-8060.1 states that the CMR must have sufficient time for evaluation of the MUA prior to
     the scheduled use of the material.

•    Analyses. Boeing did not support the MUA’s with adequate analyses to identify and
     mitigate potential risks. In addition, Boeing did not adequately monitor its use of potentially
     hazardous materials and ensure that all affected parties clearly understood control
     procedures. The PGOC requires that the Boeing PGOC Office of Safety prepare a risk
     assessment of the safety impact for variances that are forwarded to NASA for approval.

•    Safety Office Review. Neither the Kennedy nor Boeing safety offices reviewed the
     MUA’s to ensure that Boeing personnel would use the materials in a manner that would not
     put personnel or equipment at risk. The PGOC requires that all safety variances be reviewed
     and approved by the NASA safety office. Boeing safety staff responsible for monitoring and
     inspecting the SSPF and O&C building high bay areas told us that they were not aware of
     any variances or waivers for the materials in use.

Risks of Using Potentially Hazardous Materials

By not ensuring that Boeing followed documented procedures and contract requirements for the
use of PFA’s, NASA lacks assurance that ground workers are using these materials in a safe and
controlled manner, especially with regard to their potential flammability and ESD.

•    Flammability. For each of the flammability tests conducted, when personnel in the NASA
     Materials Science Lab ignited the foam padding, the foam did not self-extinguish. In addition,
     the foam padding dripped particles to lower surfaces, causing it to fail testing. Boeing
     materials and processes personnel stated in the MUA’s that flammability risks were mitigated
     by (1) covering the foam with film that passes required flammability tests or (2) using the foam
     only on the floor of the SSPF. However, when we walked through the SSPF high bay areas,
     we observed that the foam was abundantly used throughout the facility, including on vertical
     surfaces. Furthermore, photographs of the SSPF and O&C building show that the foam was
     used throughout both facilities, including on vertical surfaces. We did not observe foam
     covered with film. Figure 1 shows ISS equipment in the O&C building, with the blue foam11
     used in a non-horizontal position. If this material ignited and ground workers did not detect

11
  An employee of the NASA Materials Science Lab identified the blue material in Figure 1 as L380FR
polyethylene foam.



                                                   6
the fire, there is a risk that it would not extinguish itself and would drip particles to lower
surfaces, causing more damage.




                                              7
                                                                                                               L380FR
                                                                                                               Polyethylene
                                                                                                               Foam




Figure 1. Blue Foam Used on the S Zero Truss Element of the ISS in O&C Building High Bay, November 9,
1999.


     •   ESD. When the NASA Materials Science Lab tested the foam padding, it held a static
         electrical charge longer than the acceptable period. To pass testing, material can hold a
         charge of only 350 volts for less than 5 seconds after termination of the initial charge. The
         foam for which NASA issued MUA’s held a residual charge of more than 19,000 volts.
         Boeing materials and processes personnel stated in the MUA’s that the contractor would
         mitigate ESD risks by using the foam only where ESD was not a concern. However,
         Boeing did not identify the location of those particular areas. When we toured the SSPF,
         we observed that the foam padding was being used throughout the facility’s intermediate
         and high bays, which significantly increased the risk of ESD. In addition, in January
         1998, a mishap occurred in the SSPF in which a test technician incorrectly disconnected
         an energized cable in the ISS Unity Node element.12 A NASA employee who was a
         witness to the incident told us that the disconnect caused an electrical arc that was both
         visible and audible. The witness further stated that the mishap could have been much
         worse because the cable was surrounded by polyethylene foam that had failed the
         required ESD tests.

The ultimate risk of improper use of these materials is damage or destruction of ISS hardware or
harm to ground workers. The Kennedy Director of Space Station and Shuttle Payloads
acknowledged this risk in a June 11, 1999, memorandum, which states:


12
  The Unity Node is a connecting passageway to living and work areas of the ISS. It is the first major U.S.-
built component of the ISS and was launched into orbit in December 1998.



                                                    8
                . . . With the introduction of ammonia, isopropyl alcohol, gaseous oxygen
                and other hazardous materials into the O&C and SSPF, it is important that
                materials and process (M&P) engineers control the use of plastic films,
                foams, adhesive tapes (PFA’s) and solvents in these facilities. . . .

In that same memorandum, the Kennedy Director of Space Station and Shuttle Payloads directed
personnel to improve safety in the O&C building and the SSPF:

                . . . all providers of hardware elements, support equipment, and payloads
                shall remove and discard all noncomplying PFA’s within 24 hours of
                arrival in a processing area . . . .

                Customers currently on site and not using PFA’s that meet requirements .
                . . will have 90 days upon receipt of this letter to remove noncompliant
                PFA’s.

We did not observe any additional safety procedures implemented as a result of the
memorandum.

Contract Award Fees Received

Despite Boeing’s use of the potentially hazardous materials, it continually received the full award
fee for safety and mission assurance for each award fee evaluation period since January 1997.
The PGOC states that one of the purposes of the award fee provisions is to encourage and
reward the contractor for safe, timely, quality, cost-conscious performance in fulfilling the
requirements set forth in the contract. Item III. C.3 of the award fee evaluation criteria states:

                Safety will be emphasized in all evaluations. Incidents attributable to the
                contractor’s effort involving mission failure or degradation, employee
                safety, equipment or hardware damage, or potential hazards will result in
                significant loss of fee earning opportunity.


We reviewed the PGOC award fee data for the five completed evaluation periods since the
contract was converted to a performance-based contract in January 1997. For each period,
Boeing’s award fee was not affected by potentially unsafe practices including:

•   Boeing’s continued use of polyethylene foam and plastic bubble wrap despite the Boeing
    safety office’s knowledge that these materials failed required tests for flammability and ESD.

•   The January 1998 close call in the SSPF when an energized cable in the ISS Unity Node that
    was surrounded by the polyethylene foam was mistakenly disconnected.




•   Input from an award fee performance monitor that stated that Boeing used incorrect methods
    to obtain approval of unknown material, failed to follow proper procedures on material



                                                  9
    approval, and failed to remove materials from the premises that had not passed required
    testing.

**Deliberative process information omitted.**




Recommendations, Management’s Response, and Evaluation of
Response

Kennedy management provided extensive comments on our finding that are addressed in
Appendix F of this report.

The Director, John F. Kennedy Space Center, should:

    1. Implement procedures to ensure the safe use of all materials (materials currently
    in use and new materials introduced into the SSPF or O&C building) that do not meet
    NASA and Kennedy requirements for flammability and ESD.

Management’s Response. Concur. Kennedy has undertaken additional measures to ensure
the safe use of materials that do not meet requirements for flammability and ESD. The complete
text of management's response is in Appendix E.

Evaluation of Management’s Response. Management's planned actions are responsive to
the recommendation. The recommendation is resolved, but will remain undispositioned and open
for reporting purposes until corrective actions are completed.

    2. Clarify instructions for preparation of MUA’s to ensure that each MUA is
    prepared in a timely manner, supported by a documented analysis, and reviewed and
    approved by both contractor and Kennedy safety offices.

Management’s Response. Concur. The Kennedy Logistics Operations Directorate’s
Materials Science Laboratory, in conjunction with other Kennedy organizations, is rewriting the
procedure for the Center Materials and Processes Control Program, which covers the
preparation of MUA’s (see Appendix E).

Evaluation of Management’s Response. The actions planned by management are responsive
to the recommendation. The recommendation is resolved, but will remain undispositioned and
open for reporting purposes until corrective actions are completed.




                                              10
    3. Increase surveillance of Boeing’s inspection procedures. The surveillance should
    ensure that Boeing (a) regularly inspects all potentially hazardous materials
    including PFA’s; (b) ensures that all materials used are approved; (c) determines
    whether an MUA was authorized, or is planned to be authorized for the use of the
    materials not approved; and (d) promptly removes all materials that have not been
    approved or for which an MUA has not been authorized.

Management’s Response. Concur. Among other noted implemented and planned corrective
actions, (1) the Kennedy Space Station and Payload Assurance organization has implemented an
increased awareness program for PFA’s (2) the NASA Safety Assurance Division will assure
that the contractor uses PFA’s in a safe, documented, and controlled manner, and (3) the NASA
Quality Assurance Division will conduct special audits on the contractor, and all nonconformance
noted will require contractor corrective and preventative action plans (see Appendix E).

Evaluation of Management’s Response. The actions planned by management are responsive
to the recommendation. The recommendation is resolved, but will remain undispositioned and
open for reporting purposes until corrective actions are completed.

    4. Direct the PGOC Contracting Officer to determine whether there is a basis to
    withhold all contract costs relating to noncompliant PFA’s

Management’s Response. Concur. The PGOC took prompt action to put appropriate
processes in place to assure proper control of PFA's. The PFA’s in question are materials that
have multiple valid uses on the contract, including in the SSPF and O&C building facilities when
used according to required procedures. Therefore, the costs of these materials meet the
"reasonableness" and "allocability" tests prescribed in Federal Acquisition Regulation section
31.201-2 in determining whether they are allowable. There is not a basis to consider
disallowance of costs (see Appendix E).

Evaluation of Management’s Response. The actions taken by management are responsive to
the recommendation. We consider the actions sufficient to disposition the recommendation,
which will be closed for reporting purposes.

     5. Direct the PGOC Contracting Officer to ensure that proper surveillance of
     contractor activities with regard to the proper use and control of PFA’s is conducted
     and appropriate contract award fee action is taken if necessary.

Management’s Response. Concur. Kennedy has taken aggressive action to assure the
proper use of PFA’s. The contractor has, at this time, demonstrated that it has the proper
policies and procedures in place to ensure the safe and proper use and control of PFA’s.
Monitoring of this area of performance is being conducted to ensure that compliance with the
requirements continues (see Appendix E).




                                              11
Evaluation of Management’s Response. The actions planned by management are responsive
to the recommendation. The recommendation is resolved, but will remain undispositioned and
open for reporting purposes until corrective actions are completed.




                                           12
               Appendix A. Objectives, Scope, and Methodology

Objectives

Our objectives, as discussed in this report, focused on safety concerns with Kennedy’s PGOC
that the Chairman of the U.S. House of Representatives’ Committee on Science brought to the
attention of the OIG in a February 25, 1999, letter. We reviewed the contractor’s operations to
determine whether:

•   safety responsibilities between Boeing and NASA had been clearly defined,

•   hazardous materials were being used in Kennedy’s processing facilities, and

•   hazardous materials, if used, were properly controlled.

The overall objective of the audit, which will be addressed in a separate report, is to evaluate the
safety procedures of Agency contractors.

Scope and Methodology

To determine whether the PGOC clearly defined safety responsibilities for Boeing and NASA,
we:

•   Reviewed the official PGOC file.

•   Discussed the contract safety requirements with the NASA Contracting Officer, the
    Contracting Officer’s Technical Representative, the Director of the Kennedy Space Station
    and Shuttle Payloads Office, and staff in the Kennedy and Boeing safety offices.

To determine whether prohibited materials were used in Kennedy processing facilities and if so,
whether they were properly controlled, we:

•   Reviewed the NASA and Kennedy requirements for materials testing, control, and approval
    procedures.

•   Reviewed Kennedy materials testing records dated from July 1992 through September 1999.

•   Reviewed the applicable MUA’s.

•   Discussed materials testing, control, and approval procedures with the Kennedy CMR,
    NASA Materials Science Lab personnel, Boeing materials and processes officials, and safety
    staff.




                                                13
Appendix A


•   Toured the SSPF and O&C building high bays.

Management Controls Reviewed

We reviewed management controls relative to safety requirements for NASA contracts as
described in NASA Handbook 1700.1, “NASA Safety Policy and Requirements Document.”
Specifically, we reviewed the Contracting Officer’s procedures for ensuring that specific
contractor safety tasks are clearly defined in the basic contract. The controls in place were
considered adequate. We also reviewed Kennedy’s procedures for approving the use of
materials that fail required testing procedures. As discussed in the finding, controls need to be
strengthened to ensure that the Kennedy and Boeing safety offices review and approve all
MUA’s and to ensure that a documented analysis is performed for each MUA.

Audit Field Work

We performed field work from October 1999 through January 2000 at NASA Headquarters and
Kennedy. We performed the audit in accordance with generally accepted government auditing
standards.




                                               14
 Appendix B. Materials Testing, Approval, and Control Requirements

The following policies are applicable to NASA’s requirements for testing, using, and controlling
hazardous materials:

NASA Handbook 1700.1, “NASA Safety Policy and Requirements Document,” June
1, 1993. The handbook is the central Agency document containing policy, safety requirements,
and guidelines that define the NASA safety program. The handbook states that the safety
organization with authority to establish a safety requirement is responsible for:
            •   reviewing and ruling on variances to the requirement, or

            •   delegating the responsibility for ruling on variances with possible
                conditions placed on the approval process (e.g., requiring proper
                analysis, risk assessment, and safety factor limits).


Kennedy Handbook 1710.2, “Kennedy Space Center Safety Practices Handbook,”
Revision D, November 1, 1998. The purpose of the handbook is to establish consolidated
safety requirements to define the parameters and boundaries required during design, operations,
and maintenance activities at Kennedy. The Kennedy office responsible for the handbook is the
Safety and Mission Assurance Directorate. The handbook states that when a requirement of the
handbook cannot be met, the requesting organization shall provide variance data information to
the Director of Safety and Mission Assurance.

Kennedy Handbook 1700.7, “Space Shuttle Payload Ground Safety Handbook,”
Revision C, August 19, 1999. The handbook aligns existing Department of Defense and
NASA ground safety criteria and establishes requirements for ground processing of
Shuttle payloads and associated ground support equipment. The Kennedy office responsible for
the handbook is the Safety and Mission Assurance Directorate. The handbook requires all
Kennedy payload organizations to comply with the established requirements or obtain a waiver
for each case in which compliance is infeasible. For operations at Kennedy, requesting
organizations should submit a waiver request to the Kennedy Director of Safety and Mission
Assurance. Information provided on the request should include, among other things, reasons for
noncompliance to the stated requirement and rationale for acceptance of the waiver, including any
required support data and drawings, and a list of possible methods and techniques used in
mitigating the hazards. Also, the handbook states that payload organizations shall select from the
approved materials lists, those materials susceptible to the generation, collection, and holding of
static electrical charges. The handbook further states that use of flammable materials and static-
producing materials shall be kept to a minimum in all payload-processing areas.




                                                  15
Appendix B


KSC [Kennedy Space Center]-LO-8060.1, “KSC [Kennedy Space Center] Materials
and Processes Control Program,” July 15, 1997. The document establishes the policy and
steps to be followed by all organizational elements at Kennedy in the selection of materials.
Organizations at Kennedy are required to submit to the Kennedy CMR analysis and test results
to show that selected materials meet safety requirements. If NASA or contractor personnel
choose materials that do not meet such requirements, the organization must submit an MUA to
the CMR. The CMR must have sufficient time for evaluation of the MUA prior to the scheduled
use of the material.

KDP [Kennedy Document Procedure]-P-2207, “Safety Variance Process,”
Revision A, November 1998. The objective of this guidance is to provide an efficient and
accurate method of documenting and tracking variances pertaining to established safety policies.
The variance process assures (1) appropriate organizations are accountable, (2) operations are
safe, (3) risks are acceptable, (4) contract requirements are met, and (5) Federal and agency
requirements are met. Administrators from the Safety and Mission Assurance Directorate must
review and evaluate variance requests to ensure that the risks and rationale associated with the
variance are acceptable. The document states that the Kennedy Director of Safety and Mission
Assurance shall approve all variances.

Payload Ground Operations Contract (PGOC), NAS10-11400. In accordance with
Appendix 11 of contract NAS10-11400, Boeing shall “establish a means to analyze the safety
impact” for proposed waivers and deviations.

NASA Technical Standard 6001, “Flammability, Odor, Offgassing, and Compatibility
Requirements and Test Procedures for Materials in Environments That Support
Combustion,” February 9, 1998. This document establishes the technical requirements for
evaluation, testing, and selection of materials to preclude unsafe conditions related to flammability
and other hazards. This document does not address variance policies and procedures for using
materials that fail the required test.




                                               16
                        Appendix C. Hazardous Materials Test Results

         Material                     Test Dates & Results             MUA Date & Rationale            Audit Observations
                                                                            for Use
Red, white, or blue L380FR-B   NASA first tested these materials      The Kennedy CMR                There was no MUA for
Polyethylene Foam.             on 7/31/92. Test results were:         signed the MUA on              the green foam. Figures
Manufactured by United                                                9/20/99, and the Boeing        2 and 4 in Appendix D
Foam Plastics Corporation.     Flammability: Failed. Samples of       materials and processes        show these foams on
                               each material dripped flaming          representative signed on       ISS hardware
                               particles, igniting test paper below   9/21/99. Boeing will use       throughout the SSPF.
                               the test materials.                    the foam as a pallet
                                                                      protective pad and must
                               ESD: Failed. Samples of each           cover or move material if
                               material maintained a residual         ESD is a concern.
                               charge of more than 19,000 volts of
                               electricity 5 seconds after
                               termination of a static charge. The
                               minimum charge allowable was 350
                               volts.

Blue L380FR-B Polyethylene                                            The Kennedy CMR                None
Foam. Manufactured by                                                 signed an MUA on
United Foam Plastics                                                  9/20/99, and the Boeing
Corporation                                                           materials and processes
                                                                      representative signed on
                                                                      9/21/99. Boeing will use
                                                                      the foam for ISS
                                                                      equipment.

Red, white, or blue L380FR-B                                          The Kennedy CMR and            The MUA did not
Polyethylene Foam.                                                    Boeing materials and           include the green foam.
Manufactured by United                                                processes representative       Photographs of the
Foam Plastics Corporation                                             signed an MUA on               O&C building (Figure 1
                                                                      10/7/99. Boeing will use       page 7) and the SSPF
                                                                      material in only horizontal    (Figures 2 and 4,
                                                                      position, on the floor         Appendix D) show the
                                                                      where ESD is not a             foam in positions other
                                                                      concern.                       than on the floor.

Miscellaneous foam                                                    The Kennedy CMR and            During our walk-
padding, including L380FR-                                            Boeing materials and           throughs of the O&C
B Polyethylene Foam.                                                  processes representative       building and SSPF, we
                                                                      signed an MUA on               observed that foam was
                                                                      10/7/99. The material          not covered with
                                                                      failed all tests, but Boeing   plastic.
                                                                      will cover material with an
                                                                      approved plastic film. If
                                                                      the plastic film tears,
                                                                      Boeing should remove
                                                                      materials immediately.




                                                           17
Appendix C

          Material                   Test Dates & Results             MUA Date & Rationale           Audit Observations
                                                                           for Use
Flashbreaker 2 Tape.          NASA tested this material in April     The Kennedy CMR               None
Manufactured by               1999. Preliminary test results were:   signed an MUA on
Airtech International, Inc.                                          9/20/99, and the Boeing
                              Flammability: Failed. A test           materials and processes
                              sample did not self-extinguish         representative signed on
                              within the allowable parameters.       9/21/99. Boeing will use
                                                                     material on ISS hardware
                              ESD: Failed. A sample of the           because it does not
                              material maintained a residual         contaminate hardware
                              charge of more than 19,000 volts of    surfaces. NASA could
                              electricity 5 seconds after            not find a tape that passed
                              termination of a static charge. The    contamination,
                              minimum charge allowable was 350       flammability, and ESD
                              volts.                                 tests.

Clear Bubble Wrap.            NASA tested this material on           The Kennedy CMR and           NASA and Boeing
Manufacturer unknown.         12/19/97. Preliminary test results     Boeing materials and          personnel told us that
                              were:                                  processes representative      they do not permit
                                                                     have not signed MUA’s         bubble wrap in any of
                              Flammability: Failed. A sample of      for these materials.          the processing facilities.
                              the material dripped flaming                                         Although vendors may
                              particles, igniting test paper below                                 use it as packing
                              the test material.                                                   material, Boeing
                                                                                                   personnel are to
                                                                                                   immediately discard the
                                                                                                   material upon receipt of
                                                                                                   payloads from vendors.
                                                                                                   However, Figure 3,
                                                                                                   Appendix D, shows use
                                                                                                   of clear and pink bubble
                                                                                                   wrap.

SC120 Pink Bubble Wrap.       NASA tested this material on
Manufactured by Sealed Air    12/23/97. Test results were:
Corporation.
                              Flammability: Failed. A sample of
                              the material dripped flaming
                              particles, igniting test paper below
                              the test material.

                              ESD: Failed. A sample of the
                              material maintained a residual
                              charge of more than 4,000 volts of
                              electricity 5 seconds after
                              termination of a static charge. The
                              minimum charge allowable was 350
                              volts.




                                                          18
19
                  Appendix D. Polyethylene Foam and Bubble Wrap Usage




L380FR-B
Polyethylene
Foam




                Figure 2. Blue Foam* on ISS Unity Module in SSPF High Bay, March 9, 1998.




                                                                                                              Pink Bubble
                                                                                                              Wrap



Clear Bubble
Wrap




                Figure 3. Pink and Clear Plastic Bubble Wrap* on the ISS Pressurized Mating Adapter 2 in SSPF
                High Bay, April 28, 1998.
        *An employee of the NASA Materials Science Lab identified the blue material in Figure 2 as L380FR-B
        polyethylene foam and the plastic materials in Figure 3 as clear and pink bubble wrap.




                                                          20
              Appendix D




L380FR-B
Polyethylen
e Foam




              Figure 4. Red and Green Foams* on the ISS Unity Module in SSPF High Bay, August 27, 1998.


              * An employee of the NASA Materials Science Lab identified the red and green material in Figure 4 as
              L380FR-B polyethylene foam.




                                                                 21
Appendix E. Management’s Response




                                    See Appendix F,
                                    OIG Comment 1


                                    See Appendix F,
                                    OIG Comment 2




                19
Appendix E




             20
     Appendix E




21
Appendix E




             22
     Appendix E




23
Appendix E




             24
     Appendix E




25
                Appendix E




e Appendix F,
G Comment 3




e Appendix F,
G Comment 4




e Appendix F,
G Comment 5




e Appendix F,
G Comment 6




                             26
     Appendix E




         See Appendix F,
         OIG Comment 7




         See Appendix F,
         OIG Comment 8




         See Appendix F,
         OIG Comment 5




         See Appendix F,
         OIG Comment 9


         See Appendix F,
         OIG Comment 10




         See Appendix F,
         OIG Comment 5




27
                Appendix E




e Appendix F,
G Comment 5




e Appendix F,
G Comment 11


e Appendix F,
G Comment 12




e Appendix F,
G Comment 13


e Appendix F,
G Comment 14




                             28
29
         Appendix F. OIG Comments on Management’s Response

Kennedy management provided the following general and specific comments in response to our
draft report. Our responses to the comments are also presented.

Management’s Comment. The report focuses on one issue of questionable importance.

1. OIG Comments. The scope of the audit focused on specific safety concerns provided to the
OIG by the Chairman of the House of Representatives Committee on Science. One of these
concerns was the use of potentially hazardous materials in the SSPF and O&C building.
Implementation of our recommendations will help ensure the safe usage of PFA's in these facilities
and possibly prevent the occurrence of incidents regarding their use.

Management’s Comment. Foremost among our concerns is that the general public and press
will reach the conclusion that Kennedy and its payload ground processing contractor routinely
tolerated the existence of potentially hazardous materials in its payload processing facilities and
that the level of risk is high.

2. OIG Comments. Based on our audit work, which was performed in accordance with
generally accepted government auditing standards and included first-hand observations and a
detailed review of materials testing records, we concluded that Kennedy and its payload ground
processing contractor routinely tolerated the existence of potentially hazardous materials in its
payload processing facilities. Kennedy management provided no documentation or risk analyses
to support the level of risk associated with the materials. Therefore, we could not attest to the
level of risk associated with using the materials.

Management’s Comment. NASA-STD-6001, “Flammability, Odor, Offgassing, and
Compatibility Requirements and Test Procedures for Materials in Environments that Support
Combustion,” dated February 9, 1998, is approved for use by NASA Headquarters and all Field
Centers to establish requirements for evaluation, testing, and selection of materials. Several
statements in the audit report are in conflict with the requirements of the NASA standard, as
detailed under our "Specific Comments."

3. OIG Comments. NASA-STD-6001, “Flammability, Odor, Offgassing, and Compatibility
Requirements and Test Procedures for Materials in Environments That Support Combustion,”
February 9, 1998 is a technical document that specifies the actual testing procedures for
materials. It does not address specific safety procedures to follow when using materials that fail
required tests, the primary issue in the audit report. Paragraph 1 of the standard states:




                                               30
                                                                                              Appendix F

                Systems containing materials that have not been tested or do not meet the
                criteria of the required tests must be verified to be acceptable in the use
                configuration by analysis or testing. This verification rationale must be
                documented and submitted to the responsible NASA center materials
                organization for approval.


Our concern, as described in the report, is the weakness in Kennedy’s process for verifying the
acceptability of materials that failed the required tests. Furthermore, as stated in the introduction
section of NASA-STD-6001, it is not intended to be the sole guidance for controlling materials.
NASA-STD-6001 is one of many documents that comprise Kennedy’s material control program
and its requirements. Management stated in its response to recommendation 1 that it is notifying
all payload processing contractors, users, and customers that McDonnell Douglas Procedure,
MDP-0808, “Control Plans for Non-flight Materials and Equipment Approved for Use in and
Around Shuttle Payloads During STS Payload Operations,” is the governing document controlling
the use of PFA’s. Both the current version of MDP-0808, dated March 6, 2000, and the
PGOC reference NASA, Kennedy, and Boeing safety requirements, which should apply to the
conditions identified during the audit and detailed in the report.

Management’s Comment. Noncompliant plastics never posed a hazard to personnel in either
the SSPF or the O&C building since no operations or chemicals are involved that could
conceivably react with any noncompliant plastics.

4. OIG Comments. Management’s position that noncompliant plastics never posed a hazard to
personnel has never been documented, supported by an adequate analysis, or reviewed and
approved by safety personnel as required by the PGOC contract, NASA, or Kennedy safety
requirements. Thus, we cannot attest to the level of risk associated with using this material other
than to conclude that the material is potentially hazardous.

Management’s Comment. The term “hazardous materials” is misused throughout the report.
PFA's are not classified by any regulatory agency as hazardous materials. These materials can
contribute to a hazardous situation, if not properly controlled, but the PFA's used in the Space
Program are no different than materials found in any average workplace or household.

5. OIG Comments. We use the term “potentially hazardous materials” throughout the report.
In contrast to this comment, management also states on the first page of its response that "PFA's
have the potential to create a hazardous condition if not properly handled or controlled." As we
found during the audit and as documented throughout the




                                                  31
Appendix F

report, Kennedy did not properly control these materials as evidenced by the lack of documented
risk analyses and safety office review and approval. The abundant improper uses of the
materials, as was observed during our walk-through and as evidenced in the report photographs,
indicate the lack of control over these materials and the potential hazards that exist.

If management's position is that these materials do not pose a potential hazard, we question why
Kennedy would subject the materials to expensive and elaborate testing requirements. Finally,
household materials are generally not subject to the same detailed U.S. Government testing
requirements as were the PFA’s used in Kennedy’s facilities.

Management’s Comment. The term “variance” is a safety term and not one that applies to the
materials control process. The NASA/contractor safety offices are not required to review the
MUA’s. NASA-STD-6001 does not require safety organizations to approve materials.

6. OIG Comments. Management stated that the materials in question could contribute to a
hazardous situation if not properly handled or controlled. Further, some of Kennedy
management’s own actions indicate that the proper use and control of materials was indeed a
matter of safety. For example, management:

•    Formed a working group, with both Kennedy and Boeing safety office representatives, to
    address the control of PFA's.

•   Placed a large placard in the lobby of the SSPF warning employees to use caution with
    PFA's.

•   Issued a memorandum that stated, with the introduction of ammonia, isopropyl alcohol,
    gaseous oxygen, and other hazardous materials into the SSPF and O&C building, it was
    important to control the use of PFA's to ensure safety, contamination control, and mission
    success.

Further proof that safety applies to the materials control process is on the Materials Science
Division's Intranet. The Intranet, referenced by the placard in the lobby of the SSPF, states that
“the use of processing materials in hazardous and contamination controlled areas must be
approved by the KSC Safety Office.” Furthermore, the current version of MDP-0808, dated
March 6, 2000, states, “Approval of an MUA is the responsibility of Boeing Materials and
Process Engineering and [emphasis added] Boeing Safety Health and Environmental Affairs.”




                                               32
                                                                                       Appendix F


For these reasons, we believe that the proper control of PFA's is a safety matter requiring the
preparation of a safety variance for any material that does not meet required testing criteria.
According to KHB 1710.2, Kennedy Space Center Safety Practices Handbook, “Adhesive
tapes and plastic films used in Kennedy flight hardware processing facilities shall only be used for
operations where they meet the acceptance criteria for their specified use.” As stated in
Appendix B of this report, a deviation from a requirement of the handbook requires a safety
variance from the Director of the Kennedy safety organization. An MUA would fit the criteria for
a safety variance if it is supported by an adequate documented analysis and a safety office review
and approval and if it is prepared before the material in question is used. As stated in the report,
the MUA’s that Kennedy used were not prepared in a timely manner, were not supported by an
adequate analysis, and were not reviewed by the Kennedy safety office.

Management Comment. NASA did identify the concern about nonapproved PFA's in the
Kennedy Director of Space Station and Shuttle Payloads letter, dated June 11, 1999, which is
referenced in the report on pages 7-8.

7. OIG Comments. The June 11, 1999, letter from the Kennedy Director of Space Station and
Shuttle Payloads identified only a concern about using nonapproved PFA's. The letter did not
identify and appropriately mitigate the risks of using those materials. Kennedy had been using
nonapproved plastics and foams for at least 7 years prior to the letter being signed. Further, we
observed no additional safety procedures implemented as a result of the letter.

Management Comment. The Background paragraph contains a sentence that is incorrect. The
NASA Center Materials Representative, not Safety, is responsible for the testing and evaluation
of materials against a set of requirements.

8. OIG Comments. As stated in the second sentence of the same paragraph, we recognize that
the NASA Materials Sciences Lab is responsible for testing all materials against flammability and
ESD requirements. The word “safety” has been removed from the first sentence.

Management Comment. Add the word “potentially” before “hazardous to ground workers.”

9. OIG Comments. The sentence has been revised to include the word “potentially.”

Management Comment. In Footnote 5, it is not the material being used that is sensitive to a
static electric build up.

10. OIG Comments. The footnote has been revised.

Appendix F



                                               33
Management Comment. What is a timely manner? Some MUA’s require little or no
modifications. However, under certain conditions, MUA’s may require as many as 3 to 6 months
to perform a complete analysis and any testing that may be required.

11. OIG Comments. In our opinion, a timely manner would be to finalize the MUA before the
material that has failed testing is used. An elapsed time of 7 years after the material is first tested
is not timely.

Management’s Comment. Boeing was not building ISS components at Kennedy in 1992;
therefore, no MUA’s were prepared until after the ISS program decided to move construction to
Kennedy.

12. OIG Comments. PGOC personnel (McDonnell Douglas or Boeing) have been performing
payload processing activities at various Kennedy facilities since the PGOC was awarded in 1987.
Such activities have not been limited to the ISS program and have included other Space Shuttle
and expendable launch vehicle payloads.

Management Comment. The materials referred to as being in abundance in the November
walkdown of the high bay were already approved for use by MUA’s dated September 1999.

13. OIG Comments. Although the CMR and Boeing materials and process representative may
have signed the MUA’s in September 1999, we observed that the foam was not properly
controlled or used in accordance with the MUA’s. The photographs in the report support our
observations. For example, the MUA’s required that the foam be used only on the floor of the
SSPF or be covered with a film that passed required tests. We did not observe any foam
covered with this film. We observed foam abundantly used on vertical surfaces, an unapproved
use, as well as the floor of the SSPF, as permitted by the MUA. We also observed the use of
green foam in the SSPF that did not have an approved MUA. As described in the report and
acknowledged in management’s response, PFA's have the potential to create a hazardous
condition if not properly controlled.

Management Comment. There is no requirement for the safety offices to approve MUA’s.

14. OIG Comments. As noted in OIG Comment 6, the current version of MDP-0808, dated
March 6, 2000, specifically states that approval of MUA’s is the responsibility of the Boeing
materials and process engineering and safety offices. According to management’s response to
Recommendation 1, all processing personnel will be informed that MDP-0808 is the governing
document controlling the usage of PFA's in Kennedy processing areas. As such, there clearly is a
requirement for safety office approval.




                                                 34
                                                                                       Appendix F


Management Comment. The S Zero Truss, in the photograph on page 7 of the report, is in an
area specifically designated as a commercial processing area that belongs to the Boeing prime
contract, and anything that occurs in that area has no relationship or bearing on the PGOC. The
photograph is dated November 9, 1999 and the MUA approving the material was signed in
September 1999.

15. OIG Comments. The purpose of the photograph was to show that foam padding was
being used in a vertical position, which was contrary to the September 1999 MUA, which
requires that the foam padding be used only on the floor of the building. Conversion of the
PGOC to a performance-based contract clearly established Boeing’s overall safety
responsibilities for various Kennedy processing facilities, including the O&C building.

Management Comment. The January 1998 close call in the SSPF was a Boeing Prime close
call and not a PGOC close call and, therefore, was not written as an award fee issue on the
PGOC

16. OIG Comments. Regardless of who incurred the close call, a hazard was made potentially
worse by the existence of the noncompliant foam. Despite this incident and Boeing's overall
responsibility for safety, the situation was not even considered as part of the award fee evaluation
process. As stated in the report, Boeing has industrial safety responsibilities for the SSPF, which
includes mishap reporting. This close call was not recorded in Kennedy’s Incident Reporting
Information System for proper tracking and disposition, indicating a potentially serious flaw in
Kennedy’s safety program.

**Deliberative process information omitted.**




                                               35
                         Appendix G. Report Distribution


National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Associate Administrator for Headquarters Operations
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
P/Associate Administrator for Public Affairs
Q/Associate Administrator for Safety and Mission Assurance
QS/Director, Safety and Risk Management Division
R/Associate Administrator for Aero-Space Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Policy and Plans

NASA Centers

Director, John F. Kennedy Space Center
 Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management
 and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division,




                                             36
Office of Management and Budget




                                  37
Appendix G

Non-NASA Federal Organizations and Individuals (Cont.)

Associate Director, National Security and International Affairs Division, Defense
 Acquisitions Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and
 International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Members

Honorable Pete Sessions, U.S. House of Representatives
Honorable F. James Sensenbrenner, Jr., U.S. House of Representatives




                                              38
                   NASA Assistant Inspector General for Auditing
                                  Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent with
our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Final Report on the Audit of Safety Concerns with Kennedy Space Center's
Payload Ground Operations

Report Number:                                         Report Date:


Circle the appropriate rating for the following statements.

                                                      Strongl                              Strongl
                                                         y      Agree   Neutra   Disagre   y         N/A
                                                       Agree              l         e      Disagre
                                                                                              e
1.   The report was clear, readable, and logically       5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.            5       4        3         2         1      N/A
3.   We effectively communicated the audit               5       4        3         2         1      N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5       4        3         2         1      N/A
     support the finding(s) in a balanced and
     objective manner.


Overall, how would you rate the report?

      Excellent               Fair
      Very Good               Poor
      Good

If you have any additional comments or wish to elaborate on any of the above responses,
please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                     No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to This Report

Kevin J. Carson, Program Director, Safety and Technology Audits

Karl M. Allen, Auditor-in-Charge

Rebecca L. Andrade, Auditor

Iris Purcarey, Program Assistant

Nancy C. Cipolla, Report Process Manager
